<html>
<title> - CLEANING UP AND RESTORING COMMUNITIES FOR ECONOMIC REVITALIZATION</title>
<body><pre>[Senate Hearing 113-722]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-722
 
               CLEANING UP AND RESTORING COMMUNITIES 
                      FOR ECONOMIC REVITALIZATION

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON SUPERFUND, TOXICS 
                        AND ENVIRONMENTAL HEALTH

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2013

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________


                        U.S. GOVERNMENT PUBLISHING OFFICE
96-017 PDF                  WASHINGTON : 2015                        
               
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e88f9887a88b9d9b9c808d8498c68b8785c6">[email&#160;protected]</a>  
             
               
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JAMES M. INHOFE, Oklahoma
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     MIKE CRAPO, Idaho
TOM UDALL, New Mexico                ROGER WICKER, Mississippi
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York         DEB FISCHER, Nebraska
MAZIE K. HIRONO, Hawaii

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                             
                             ----------                              

       Subcommittee on Superfund, Toxics and Environmental Health

                    TOM UDALL, New Mexico, Chairman
MAX BAUCUS, Montana                  MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
KIRSTEN GILLIBRAND, New York         ROGER WICKER, Mississippi
MAZIE K. HIRONO, Hawaii              DEB FISCHER, Nebraska
BARBARA BOXER, California (ex        DAVID VITTER, Louisiana (ex 
    officio)                             officio)
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 24, 2013
                           OPENING STATEMENTS

Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......     1
Crapo, Hon. Mike, U.S. Senator from the State of Idaho...........     2
Hirono, Hon. Mazie K., U.S. Senator from the State of Hawaii.....     5
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     8

                               WITNESSES

Stanislaus, Mathy, Assistant Administrator, U.S. Environmental 
  Protection Agency Office of Solid Waste and Emergency Response.     9
    Prepared statement...........................................    12
O'Malley, Debbie, Commissioner, Bernalillo County Commission, New 
  Mexico.........................................................    32
    Prepared statement...........................................    36
Kenyon, Kendra, President, Idaho Council of Governments..........    48
    Prepared statement...........................................    51
Anderson, Geoff, President and CEO, Smart Growth America.........    61
    Prepared statement...........................................    63


   CLEANING UP AND RESTORING COMMUNITIES FOR ECONOMIC REVITALIZATION

                              ----------                              


                        WEDNESDAY, JULY 24, 2013

                               U.S. Senate,
         Committee on Environment and Public Works,
                         Subcommittee on Superfund, Toxics 
                                  and Environmental Health,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2 o'clock p.m. 
in room 406, Dirksen Senate Office Building, Hon. Tom Udall 
(chairman of the Subcommittee) presiding.
    Present: Senators Udall, Crapo, and Hirono.
    Also present: Senator Whitehouse.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. The Subcommittee will come to order. We 
welcome you to today's meeting of the Subcommittee on 
Superfund, Toxics and Environmental Health. We are going to 
start off to just keep it rolling here. Senator Crapo will be 
here, I think, momentarily and then we will get into his 
opening also.
    First, I would like to thank and welcome the witnesses who 
came to share their stories and provide their input on EPA's 
successful Brownfields Program. We are pleased to have the 
chief EPA official overseeing the Brownfields Program with us 
today, Mr. Mathy Stanislaus.
    I would also like to extend a warm New Mexico welcome to 
Bernalillo County Commissioner Debbie O'Malley who has 
experience in redevelopment in brownfields in both the public 
and the private sectors.
    Congress established the brownfields to provide financial 
incentives to clean up the thousands of brownfields sites 
throughout America. Since 2006, EPA has enrolled 42,000 
properties, completed more than 68,800 cleanups and made over 
644,000 acres ready for development.
    These sites are underutilized areas that have been 
contaminated by environmental pollutants. They are often areas 
that no community, business or industry would develop because 
of environmental concerns or even just the perception of an 
environmental concern. They are, therefore, wasted space.
    Without this type of assistance, many communities would be 
forced to rely entirely on their own public resources for 
cleanup, often when the previous occupant who contaminated the 
property is gone. Redevelopment of brownfields sites ultimately 
spearheads community revitalization and economic development.
    In New Mexico, we have had success in turning brownfields 
sites around. The historic Santa Fe Rail Yard was once a 
vibrant part of the community prior to World War II. It became 
a blighted area following suburban expansion and the opening of 
the interstate system. The area remained polluted and 
essentially vacant for decades.
    With the help of the city of Santa Fe and money from the 
Brownfields Program, the rail yard has become a vibrant mixed 
use development with art galleries, museums, a farmers market, 
retail shops and office space. It is now an important 
contributor to Santa Fe's economy.
    Another example, the historic La Posada Hotel, was once the 
tallest building in Albuquerque and the first with air 
conditioning in New Mexico. The hotel fell into disrepair until 
it was ultimately auctioned in 2005. After that, it went 
through a costly renovation. The new owners utilized 
brownfields loans to remove lead-based paint and asbestos. The 
hotel has reopened as the Hotel Andaluz and is the first LEED 
gold certified hotel in New Mexico, another great turnaround 
story.
    One more example is the iconic Route 66. This highway was 
an important pathway for migration to the West, particularly in 
the 1930s. When Route 66 was bypassed by the interstate system, 
many of the service stations and old motels along the route 
became dormant. The underground fuel tanks leaked, causing 
contamination.
    Brownfields grants have been used to clean up this 
contamination and a variety of mixed use redevelopment has 
occurred. Route 66 economic revitalization can give an economic 
boost to New Mexico's tourism economy. It is a great route to 
travel with families and to learn history.
    Just yesterday, the EPA awarded the State of New Mexico 
another $350,000 for supplemental brownfields funding. I am 
optimistic that we will see future success stories if we keep 
this program strong.
    Earlier this year, Senator Crapo and I joined Senator 
Inhofe and the late Senator Lautenberg to introduce the BUILD 
Act, which stands for the Brownfields Utilization Investment 
and Local Development Act. This bill would increase the limit 
for cleanup grants and expand eligibility for certain public-
owned sites and nonprofit organizations. Additionally, the 
BUILD Act would reauthorize the program through fiscal year 
2016.
    I am proud to announce today that we have several new co-
sponsors, including Senators Merkley, Senator Shoots and we 
also have Senator Whitehouse, Senator Hirono, Senator Merkley, 
Senator Brown. So, we have got a good group there.
    And I now recognize Senator Crapo for any remarks that 
would like to make.

             OPENING STATEMENT OF HON. MIKE CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Thank you very much, Mr. Chairman, and 
before I make my remarks I ask unanimous consent that photos of 
some brownfields sites in Idaho that we have be entered into 
the record and be in order for review during this hearing.
    Senator Udall. Without objection. And I would also, there 
are photos with Commissioner O'Malley which are of the same 
character and part of her testimony and I would ask unanimous 
that they be put into the record. Without objection.
    Senator Crapo. Thank you very much. Good afternoon. I 
appreciate Chairman Udall for your holding this hearing for 
EPA's Brownfields Program.
    There have been a lot of fights in Congress over the past 
few months and frankly over the past few years over what the 
role of the EPA should be, how it goes about fulfilling its 
responsibilities and so on. And in fact, the EPA seems to be 
the one agency that Idahoans raise the most concerns about with 
me when they call or write or visit. However, the Brownfields 
Program has been a very bright exception to that rule.
    The EPA initiated the Brownfields Program in 1993 to assist 
communities with the cleanup of low-risk sites that were not 
considered hazardous but in which cleanup was nonetheless 
needed in order to encourage economic development. Now, 20 
years into the program's tenure, this is an ideal time to 
evaluate its track record thus far and look at ways to continue 
improving it. And what better way to do that than to hear from 
someone who runs a Brownfields Program.
    On that note, I would like to welcome Dr. Kendra Kenyon who 
will testify as part of today's panel. Dr. Kenyon is 
responsible for overseeing all aspects of the Idaho Council of 
Governments serving 10 counties and 42 cities in Southwest 
Idaho. The council is the umbrella organization for the 
following Federal and State agencies: the Area Agency on Aging, 
Economic Development District, Regional Planning Agency, the 
EDA-RDA Brownfields Revolving Loan Funds and the Idaho Hunger 
Task Force.
    Kendra has over 20 years of experience working with 
government agencies and has been involved with domestic and 
foreign policymakers as an active member of an international 
conflict management team working with members of Parliament and 
the former Soviet Union and Northern Ireland and heads of state 
in Cyprus.
    Dr. Kenyon holds a Ph.D. specializing in Organizational and 
Leadership Development, a Master's in Psychological Counseling 
and a Bachelor's Degree in Communications. Kendra's academic 
research has been used in a Harvard study and her work has been 
published in a number of professional journals.
    Dr. Kenyon has been nominated for many awards including 
Senior Fulbright Award, Ambassador Rotarian Award, and she was 
selected for the Who's Who of American Women in 2000. As her 
visual aids will attest to, Kendra is an avid outdoorswoman, 
enjoying whitewater rafting, fishing, reading and international 
travel.
    In her testimony, Dr. Kenyon will discuss the success that 
we in Idaho have had with our Brownfields Program and will also 
discuss the critical partnership between the Federal, State and 
local governments that must exist for the program to be 
successful.
    Thank you, Dr. Kenyon, for being here today.
    I think the Subcommittee will find particularly interesting 
Idaho's perspective on the challenges for small rural 
communities facing not only the gargantuan paperwork 
requirements that can accompany Federal programs but also the 
challenges of competing with non-rural communities for Federal 
funding which generally have more resources to work with. This 
is a reality that often goes unnoticed, and I am glad that Dr. 
Kenyon is going to speak to that in her testimony.
    To briefly note how important the Brownfields Program is 
for Idaho, I would like to provide an example of the good work 
the program is doing there.
    For years, the Linen Building at the northwest corner of 
14th and Grove Streets in Boise was vacant due to concerns 
about contamination stemming from its historic uses involving 
commercial laundry fuel storage and cleaning solvent storage. 
This historic property in the heart of Boise's downtown was 
cleaned up, redeveloped and now houses businesses, an event 
center, an art gallery and a parking area.
    The Environmental Council of the States reported that 
development of the Linen Building led to the purchase and 
development of more than 60 percent of the buildings, most of 
which were formerly vacant, in this area, and the formation of 
a six-block Linen District.
    There are currently 224 brownfields eligible sites in Idaho 
alone. The Brownfields Program is an example of a program that 
EPA administers that increases economic activity while 
bettering the environment. Successful brownfields projects are 
truly win-win for the economy and the environment.
    Since the program began, the Brownfields Program has been 
credited with assessing more than 20,000 properties and 
creating more than 86,000 jobs nationwide. That is why I join 
with the late Senator Frank Lautenberg and with Senator Jim 
Inhofe and our Chairman today, Tom Udall, in introducing 
bipartisan legislation to modernize and improve key elements of 
the EPA's Brownfields Program.
    As the Chairman already mentioned, the Brownfields 
Utilization Investment and Local Development Act, or the BUILD 
Act, would improve the existing grant process by increasing the 
limit for cleanup grants and expanding grant eligibility for 
certain publicly owned sites and nonprofit organizations.
    The bill would authorize the EPA to make multipurpose 
grants which provide more certainty for long-term financing. In 
addition, the legislation identifies opportunities for 
waterfront properties and brownfields sites appropriate for 
clean energy development, allows grand recipients to collect 
administrative costs and provides technical assistance to 
small, rural and disadvantaged communities. Finally, the bill 
would reauthorize the program at current levels through fiscal 
year 2106.
    Thank you again very much, Mr. Chairman, for holding this 
hearing.
    Senator Udall. Thank you, Senator Crapo.
    Senator Hirono, you are recognized for your opening.

             OPENING STATEMENT OF MAZIE K. HIRONO, 
             U.S. SENATOR FROM THE STATE OF HAWAII

    Senator Hirono. Thank you very much, Chairman Udall and 
Ranking Member Crapo, for scheduling today's hearing.
    The Brownfields Program definitely does have bipartisan 
support, not only the existing program but amendments to 
improve the program. That is really good news.
    Each of comes from a State with unique and beautiful 
natural resources, rivers, forests, mountains, the ocean. These 
features have served as the foundation of our economies and 
shaped the different histories of our communities. Part of that 
history is the story of how our predecessors made use of the 
land to support their livelihoods and prosper. In a perfect 
world, industrial activity would balance perfectly with the 
need to conserve and protect these treasures for future 
generations. As we all know, that has not always been the case.
    However, as Americans we believe in second chances and 
renewal. Those are critical themes in our economic history for 
both individuals and communities. That is what makes a program 
like the EPA's Brownfields Program so important. It affords us 
the opportunity to restore contaminated lands and create new 
opportunities for sustainable economic growth.
    Like many States across the Country, Hawaii has made use of 
brownfields funds to clean up and redevelop valuable land 
across the State. Examples. Brownfields funds have supported 
the development of the University of Hawaii's Medical School 
Campus and the Kakaako Waterfront Park in Honolulu, a park that 
is used by hundreds and hundreds of people.
    More recently, the Department of Hawaiian Homelands 
received a $200,000 brownfields grant to remediate the site of 
a 2,000 household development for Native Hawaiians in Kapolei, 
Oahu. And of course, Hawaii is a place where we certainly need 
to create affordable housing.
    These projects not only improve our environment but also 
serve as a boon to our local economy. According to the Hawaii 
State Planning Office, it is estimated that every $1 of Federal 
funds invested in brownfields redevelopment leverage to $18 in 
total investment. And redeveloping one acre of contaminated 
land creates an average of 10 jobs.
    In Hawaii it is clear. The Brownfields Program is good for 
our environment, good for our communities and good for our 
economy. In these difficult budgetary times, we should be 
looking to bolster programs that meet so many key objectives. 
That is why I am proud to be a sponsor of the BUILD Act that 
the Chairman referred to. This Act would make multiple 
improvements to the Brownfields Program by expanding grant 
eligibility, increasing grant limits and other positive 
changes.
    The Hawaii State Planning Office wrote me in support of the 
BUILD Act and I ask unanimous consent that their letter be 
included in today's hearing record.
    Senator Udall. Without objection.
    Senator Hirono. I thank the Chair and Ranking Member again 
for holding this hearing.
    [The referenced letter follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    [The prepared statement of Senator Hirono follows:]

                  Statement of Hon. Mazie K. Hirono, 
                 U.S. Senator from the State of Hawaii

    Chairman Udall, Ranking Member Crapo, thank you for 
scheduling today's hearing.
    Each of us comes from a State with unique and beautiful 
natural resources. Rivers, forests, valleys, mountains, the 
ocean--these features have served as the foundation of our 
economies and shaped the different histories of our 
communities.
    Part of that history is the story of how our predecessors 
made use of the land to support their livelihoods and prosper.
    In a perfect world, industrial activity would balance 
perfectly with the need to conserve and protect these treasures 
for future generations. As we all know, that has not always 
been the case.
    However, as Americans we believe in second chances and 
renewal--those are critical themes in our economic history for 
both individuals and communities.
    That is what makes a program like the EPA's Brownfield 
program so important. It affords us the opportunity to restore 
contaminated lands and create new opportunities for sustainable 
economic growth.
    Like many States across the country, Hawaii has made use of 
Brownfield funds to clean up and redevelop valuable land across 
the State. Brownfield funds have supported the development of 
the University of Hawaii's medical school campus and the 
Kakaako Waterfront Park in Honolulu.
    More recently, the Department of Hawaiian Home Lands 
received a $200,000 Brownfield grant to remediate the site of a 
2,000 household development for Native Hawaiians in Kapolei, 
Oahu.
    These projects not only improve our environment, but also 
serve as a boon to our local economy. According to the Hawaii 
State Planning Office, it is estimated every $1 of Federal 
funds invested in brownfield redevelopment leverages $18 in 
total investment, and redeveloping one acre of contaminated 
land creates an average of 10 jobs. In Hawaii it is clear--the 
Brownfield program is good for our environment, good for our 
communities, and good for our economy.
    In these difficult budgetary times we should be looking to 
bolster programs that meet so many key objectives.
    That is why I am proud to become a cosponsor of the BUILD 
Act. The BUILD Act would make multiple improvements to the 
Brownfield program by expanding grant eligibility, increasing 
grant limits, and other changes. The Hawaii State Planning 
Office wrote me in support of the BUILD Act and I ask unanimous 
consent that their letter be included in today's hearing 
record.
    I thank the Chair and Ranking Member for holding this 
hearing, and I look forward to working with all of you to 
advance this bill.

    Senator Udall. Thank you very much.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman, and I want to 
thank both you and the Ranking Member for your leadership on 
the BUILD Act issue. This is indeed a place where we can come 
together because this has been such a successful program.
    For every dollar of Federal funds invested in brownfields 
redevelopment it has leveraged an average of $18 dollars in 
total investment. That helps increase surrounding property 
values, it helps with employment opportunities, and it helps 
rebuild our communities at a time when they really need it.
    Rhode Island has received more than $15 million through the 
program that has supported dozens of redevelopment projects 
some of them, well, I am going to mention two. The Woonsocket 
Middle School, a project that transformed a 20-acre, hundred-
year-old industrial site into an environmental justice area and 
it became the largest middle school campus in New England, 
again with a lot of players coming together, but with these 
funds from the Brownfields Program being instrumental.
    There is a wonderful program in Rhode Island called the 
Steel Yard which is a community-based nonprofit that takes kids 
who do not have a lot of options and helps train them in arts 
and particularly metalworking, metal arts, and that has created 
30 new jobs in a blighted neighborhood out of what was 
abandoned and contaminated industrial lots.
    Just this Monday, I was at an event where the Waterfire 
Program, which is a wonderful thing that we do in Rhode Island, 
Providence has a river that goes right through the middle of it 
and we light fires and braziers out in the middle of the river 
and restaurants open up along the edges, people come from not 
just around the region but from around the Country to 
participate in it. There is music playing, people are really, 
really enjoying it. Waterfire has taken over an old industrial 
site, a former Uniroyal Rubber Plant on Valley Street and that 
was where the event was and they got a $600,000 grant to help 
move that forward.
    Another group, the West Broadway Neighborhood Association, 
which I worked with very closely when I was Attorney General, 
working on the nuisance properties in that area with a nuisance 
task force that we set up, they continue to be a wonderful 
organization that works very hard for their community and they 
have received $200,000 to help remediate a former service 
station on Westminster Street that they are going to be able to 
put to use. So right now, right here, this is working in Rhode 
Island.
    And to Senators Udall and Crapo, thank you for your 
leadership to strengthen and to simplify this terrific program. 
I look forward to working with you and I am proud to be a 
cosponsor.
    Senator Udall. Thank you very much, Senator Whitehouse.
    Now we will hear from our first witness, Mr. Stanislaus, 
Assistant Administrator of the U.S. Environment Protection 
Agency.
    You have 5 minutes for your oral statement. Your written 
statement, full statement, will be put in the record.
    Please proceed.

 STATEMENT OF MATHY STANISLAUS, ASSISTANT ADMINISTRATOR, U.S. 
   ENVIRONMENTAL PROTECTION AGENCY OFFICE OF SOLID WASTE AND 
                       EMERGENCY RESPONSE

    Mr. Stanislaus. Thank you. Good afternoon Mr. Chairman and 
members of the Subcommittee, Ranking Member Crapo, Senator 
Hirono and Senator Whitehouse, who just left. I was going to 
say the Waterfire sounds pretty cool. I have to attend that.
    Senator Udall. It does, doesn't it?
    Mr. Stanislaus. I am the Assistant Administrator for the 
U.S. Environmental Protection Agency's Office of Solid Waste 
and Emergency Response which has responsibility for the 
Brownfields Program. I am not sure I can actually talk about 
the Brownfields Program the way that you all just did, but I 
will give it a shot.
    Now we all recognize that there are many communities facing 
significant challenges today as they work to rebuild their 
economies and support economic recovery. Reclaiming vacant 
properties and repurposing brownfields are the heart of EPA's 
Brownfields Program. Cleaning up and repurposing land can be 
the impetus for spurring economic revitalization and job 
creation and a healthy environment for families and for 
workers. EPA's assistance in funding to support redevelopment 
and economic recovery is helping communities to rebuild and 
revitalize rural and urban downtowns and neighborhoods 
throughout the Country.
    Brownfields are found all around us in the smallest towns 
and villages to the largest of cities. These are properties 
where real or potential environmental concerns pose a barrier 
to reuse. Although these sites blight neighborhoods and reduce 
property values in very visible ways they can, when addressed, 
become valuable assets providing economic, social and 
environmental benefits for communities. Working together, our 
efforts show that environmental health and economic health go 
hand in hand.
    Recent research completed by my office concludes that 
brownfields cleanup leads to increases in nearby surrounding 
housing values, and prices on the average are between 5.1 to 
12.8 percent higher. This also results in increased property 
tax revenue.
    Since the Brownfields Program inception in 1995 and through 
the June of fiscal year 2013, EPA has provided funding to 
Brownfields Program grantees to assess more than 21,000 
properties, more than 41,000 ready for reuse, leveraging more 
than 93,000 jobs for cleanup and redevelopment activities, and 
leveraged more than $20.8 billion in economic development.
    Based on historical data, as you all have noted, every 
dollar of EPA brownfields resource leverages between $17 to $18 
of other kinds of investment. I would argue it is probably one 
of the best uses of Government resources in terms of the great 
leveraging it does.
    Successful reuse of brownfields properties includes wide-
scale waterfront development, manufacturing, a key focus of the 
Administration to create jobs, and in-sourcing clean energy 
production and component part manufacturing for this very 
important industry, housing and recreation, essentially the 
reuses that make a community vibrant.
    Brownfields revitalization also produces long-term 
sustainability benefits. For example, every acre of brownfields 
reused saves 4.5 acres of green space. This saves those 
properties for recreation and farming. Studies show between a 
32 to 57 percent reduction in vehicle miles traveled, thus 
reducing air pollution emissions, including greenhouse gases. 
These same studies show an estimated 47 to 62 percent reduction 
of stormwater runoff. So essentially, this demonstrates the 
win-win of the Brownfields Program.
    The EPA's Brownfields Program provides direct funding for 
brownfields assessment, cleanup, revolving loans, research, 
technical assistance, area-wide planning and environmental job 
training. The Brownfields Program funding is largely 
distributed by a statutory national competition process. This 
competition directly is linked to the success of the program.
    Essentially, we are looking at the strength of each 
application and score each of the applications based on their 
strengths, based on the partnerships, based on leveraging, 
based on the ability to implement projects in the shorter term. 
And we believe maintaining this national competition is really 
critical for continuing the success of the Brownfields Program.
    There continues to be unmet need for brownfields funding. 
Every year, we fund approximately one-fourth of the requests 
that we get. So, that is an indication of the tremendous demand 
out there. But we are trying to maximize the use of that money.
    In fiscal year 2013, more than 56 percent of our grants 
went to communities with fewer than 100,000 people, and of 
those, 40 percent went to micro-communities, or communities 
with a population of less than 10,000 people. So essentially we 
demonstrate not only are brownfields a problem in many 
communities spread throughout the Country, but also we are 
meeting that need by providing resources throughout the spread 
or the size of the communities.
    Separate from the grant competition, we also provide 
technical assistance which is critically important to enable 
particularly smaller communities to compete for Government 
resources, but also to provide assistance to enable 
transactions to move forward in a timely basis.
    And I see my time is up. But I will close by stating that 
not only is the Brownfields Program providing tools for local 
communities, it is premised on the basic paradigm of providing 
tools for local leadership to lead and not have the Government 
dictate to them. One of the successes of this program is tools 
identified by local communities, providing tools for local 
communities to lead, and I believe that is a critical part of 
the success of the program.
    A recent innovation that we are really pushing through is 
how do we maximize the implementation resources for the 
program? And every brownfields project, the implementation 
resource like transportation resources, like housing resources, 
so one of the things that this Administration is trying to do 
is to link transportation resources and link housing resources 
in a more aligned way through the HUD-DOT-EPA Sustainability 
Partnership.
    With that, I could go on because I love the Brownfields 
Program, but I will close and take your questions.
    [The prepared statement of Mr. Stanislaus follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
            
    Senator Udall. Thank you very much for your testimony, and 
we will give you a chance to speak further because we are going 
to go into a round of 5-minute questioning here. So, we 
appreciate your testimony.
    One of the issues that seems to me to be an intriguing one 
is using these sites for renewable energy, potential renewable 
energy development. For example, there is a Superfund site in 
New Mexico where Chevron has installed a large concentrated 
solar power system on a mine tailings landfill, which is, this 
project has been a great success.
    Do you see potential in developing these areas for 
renewable energy development and what kind of assistance can 
EPA provide?
    Mr. Stanislaus. Well, I see tremendous potential in that 
and we have recently, over the last few years, we have 
partnered with the Department of Energy, worked with energy 
developers and worked with the finance community to provide a 
set of tools to really tap the potential of siting renewable 
energy on contaminated property. And we think it is a win-win.
    We have done mapping of these sites which shows the subset 
of contaminated properties were in proximity to transmission 
corridors and where there are capacity gaps, to be able to site 
renewable energy on certain properties and tap into the 
transmission corridors. We have also developed a set of tools 
for local leaders to analyze which of the contaminated 
properties best fits different kinds of renewable energy.
    Senator Udall. Thank you. Now, the Brownfields Program has 
been a tremendous success because it seems that most of the 
brownfields grants have gone to urban areas. In a rural State 
like New Mexico, how can we provide better access to 
brownfields grants in rural areas?
    Mr. Stanislaus. Yes, let me just pull back my numbers. Last 
year's competition, 56 percent of our grants went to 
communities less than 100,000 and 40 percent of those went to 
even smaller than 10,000. But I think there is more to do on 
that. I received letters from probably the largest set of 
States with rural communities, about 6 or 7 months ago, and I 
have committed myself to really engaging representatives of the 
rural communities to figure out how can we better touch and 
provide resources to rural communities.
    And I have held a series of conversations at a stakeholder 
meeting recently with representatives from rural communities in 
Nebraska and Western Iowa. So, the plan is to figure out how 
can we best deliver, in some cases technical assistance, direct 
and indirect, and in some cases tailoring our grant competition 
so that we can ensure that all the communities that have a need 
get a fair percentage of the grant resources.
    Senator Udall. You know, for that 40 percent number for 
less than 10,000, that is a pretty good number I would think.
    Mr. Stanislaus. It is. And we have placed a great emphasis 
on not only making sure that our criteria is fair to ensure 
that communities can compete fairly, but do some upfront 
technical assistance.
    The critical, our studies show that the critical aspect of 
getting awards is getting successful applications. And clearly 
smaller communities need more capacity assistance than the 
larger communities. We made a conscious effort in both direct 
technical assistance but also funding technical assistance 
organizations around the Country to work with local 
communities.
    Recently, we had discussions with the rural cooperatives to 
also partner with them to engage rural communities in our 
technical assistance.
    Senator Udall. How has sequestration impacted the 
Brownfields Program?
    Mr. Stanislaus. Well, I think sequestration, like all, you 
know, Government funding has had an impact. In terms of the 
specifics, I do not have that information in front of me. But I 
can get that to you.
    Senator Udall. OK. We could appreciate that.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
  
    Senator Udall. Senator Crapo.
    Senator Crapo. Thank you very much.
    Just following on the same question about sequestration, 
from an overall program perspective, Mr. Stanislaus, can you 
tell me how the current economic climate over the past few 
years has impacted the Brownfields Program?
    Mr. Stanislaus. I think what I will say is that the 
Brownfields Program is affected by the real estate market in 
ways that other programs are not. But I think when you talk to 
local leaders, they actually see that this is the time, and we 
have seen this in the last few years, to begin the planning, 
begin the assessments, so as the real estate market begins to 
move, beginning movement there, that those properties are well-
positioned to redevelop.
    So, actually we are seeing significant interest in 
brownfields properties because of the inherent advantages. So 
brownfields properties, approximate existing infrastructure, 
approximate population centers, so there is some inherent 
advantage of that. And recently we had our National Brownfields 
Conference and I held a roundtable with a number of mayors from 
around the Country and they all believe that brownfields are 
the key aspect of revitalizing their communities and creating 
jobs locally.
    Senator Crapo. Thank you. And moving to the statistics that 
you gave us, 56 percent of the grants, I believe it was, went 
to communities with less than 100,000 and 40 percent less than 
10,000. Is that in total numbers of grants or is that in total 
numbers of dollars?
    Mr. Stanislaus. I believe it is total number of grants. Let 
me get back to you. It is the applications.
    Senator Crapo. That is in terms of the applications. Do you 
have with you, or can you get for us, the breakdown in terms of 
total numbers of dollars?
    Mr. Stanislaus. I can get you that. I do not have that with 
me.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Crapo. All right. And you indicated that the rural 
communities or, I guess, probably any community, needs to have 
successful applications in order to be successful in accessing 
these grant dollars and that one of the key factors is the 
quality of the grant applications. I think we are going to hear 
testimony about the question of how rural communities can 
compete with urban communities on that level. Could you just 
discuss that a little further?
    Mr. Stanislaus. Sure. The thing that I heard in discussions 
with rural stakeholders is precisely the point that you make 
which is that rural communities do not have the same capacity 
to put together applications that larger communities have. So 
one, to streamline the application process, two, to provide, I 
would say a more modular way of approving applications, three, 
providing earlier technical assistance. So, doing all of those 
so that they can, again, be able to compete in a more fair way. 
We are also taking a look at should we look at the competition, 
the grant competition, differently.
    And separate from that, and one of the things that I have 
heard from a lot of rural communities, is they want to get one 
or two key projects moving. So, they put on the table maybe 
there is a contract-based mechanism to advancing those projects 
as opposed to a grant mechanism. So, we have a contract-based 
mechanism to go in and do a site assessment.
    And the reason they put that on the table is because they, 
some communities do not want to have the burden of managing a 
grant and oversight of the grant. So, they prefer more getting 
into the community, doing the assessment as opposed to managing 
a grant.
    Senator Crapo. OK. Thank you very much. And I appreciate 
the fact that the EPA is aware of this issue with regard to the 
disadvantage that small communities face in competing for these 
grants and I would appreciate the attention that you could give 
in the future to making sure that the agency helps the smaller 
communities to overcome that disadvantage.
    Mr. Stanislaus. Absolutely.
    Senator Crapo. Thank you, Mr. Chairman.
    Senator Udall. Mr. Stanislaus, thank you very much. We 
really appreciate you coming and we are going to move on to our 
second panel now.
    Mr. Stanislaus. Senator, would you mind?
    Senator Udall. Please, please go ahead.
    Mr. Stanislaus. The one thing I ask you to think about is, 
again, we are significantly oversubscribed in our grant 
program. One of the reasons I believe the grant program is so 
successful is we have this national scoring competition that 
really looks at those communities that can put together the 
strength of local partnership. And if we up front divide that 
money, my concern is the potential of unintended consequence of 
impacting that success.
    So clearly we should look at rural communities and being 
able to get those resources. But if we up front divide it among 
end uses, I am a bit concerned that may have the unintended 
consequence of dampening what I believe is the success of the 
national competition process.
    So, I would ask you all to kind of think about that.
    Senator Crapo. Thank you. Mr. Stanislaus, in that context, 
a question that comes to my mind is in the process of setting 
the priorities for the competition for the grants. Are you sure 
that the factors that are utilized there are properly balanced 
between rural and urban issues?
    Mr. Stanislaus. Well, I think we try to and in fact this 
week we are going to have another stakeholder conversation. So, 
I believe we do. But I think we could always learn more and are 
always open to, maybe we can score things differently. I would 
be open to looking at that.
    Senator Crapo. OK. Thank you very much.
    Mr. Stanislaus. You are welcome. Thank you.
    Senator Udall. Do you, are you capable of giving out to 
non-governmental and nonprofits? I mean, would you have that 
capability?
    Mr. Stanislaus. Well, that is very restrictive right now.
    Senator Udall. Do you think it would----
    Mr. Stanislaus. I do. I believe a subset of not for profits 
would be very helpful. Because when you talk to local 
government leaders around the Country, not for profits, whether 
it be community development corporations or all of the kinds of 
not for profit organizations that play a role in redevelopment, 
are a key extension of local government. So, they are, in many 
communities, the implementers of project development. So, I 
think providing not for profits eligibility, I think, would be 
really helpful.
    Senator Udall. Thank you very much for your testimony. We 
will work closely with you on the reauthorization and look 
forward to many productive years ahead. Thank you.
    And we would call up, at this point, the second panel.
    Mr. Stanislaus. Thank you. I appreciate your time.
    Senator Udall. You bet.
    I want to welcome our second panel. We have Commissioner 
O'Malley, Dr. Kenyon and Mr. Anderson. And it is wonderful to 
have you all here. You will each have 5 minutes for an oral 
statement and your full statement will be included in the 
record. And following that, as you just observed, we will have 
a time of questions and answers.
    So, Commissioner O'Malley, we will start with you and then 
proceed down the line here with Dr. Kenyon and then Mr. 
Anderson.
    Please.

 STATEMENT OF DEBBIE O'MALLEY, COMMISSIONER, BERNALILLO COUNTY 
                     COMMISSION, NEW MEXICO

    Ms. O'Malley. Good afternoon, Chairman Udall and Ranking 
Member Crapo.
    My name is Debbie O'Malley and I am Vice Chair of the 
Bernalillo County Commission representing the residents of 
District 1. Bernalillo County is the most heavily populated 
county in the State of New Mexico. Eighty-two percent of the 
county's residents reside within the city of Albuquerque. For 9 
years prior to my recent election to the County Commission, I 
was an Albuquerque City Councilor.
    I am honored to be here today to speak in support of EPA's 
Brownfields Program. As many have testified, the Brownfields 
Program has had a profound effect on the quality of life in 
communities throughout our Country.
    In Bernalillo County, this program has been instrumental in 
the cleanup of industrial sites and landfills and the creation 
of more open space, much-needed regional parks, affordable 
housing and mixed use developments. All of these projects were 
in established areas and in some cases historical neighborhoods 
and as a result did not contribute to the problems related to 
urban sprawl. For example, in 2001 the county partnered with 
the city of Albuquerque to create a million dollar revolving 
loan fund that was used to clean up and remodel a historic 
hotel, trading post and school library.
    I was asked to testify today, however, because of my direct 
role in one of the most successful neighborhood redevelopment 
efforts in the State. It is an effort that I helped lead prior 
to my becoming an elected official. It involved over 35 acres 
in the historical heart of Albuquerque.
    It is the story of the Sawmill Redevelopment Project, a 
community-driven and community-owned multi-million dollar, 
award winning redevelopment initiative that transformed two 
contaminated industrial sites into mixed use development that 
includes high-quality, permanently affordable single-family, 
multi-family and senior housing.
    It is also the story of personal commitment and 
perseverance by residents of a predominantly Hispanic, 
historic, low-income neighborhood which had experienced decline 
for decades. Today, it is the story of true and lasting 
community empowerment.
    My involvement in this project came over 20 years ago when 
I received a flier on my doorstep encouraging residents in our 
neighborhood to come to an important meeting. My husband and I 
had bought our first home in this area, an area where my family 
has a long history. It was an old adobe, mud brick, house that 
needed a lot of work but that was affordable to us at the time. 
We were busy raising our two daughters and remodeling our small 
home. Until I received that flier, I had never been to a 
neighborhood meeting or participate in any civic action.
    I went to that meeting and I discovered that a few 
determined neighbors, led by Max Ramirez, a retired house 
painter, were organizing to stop a nearby particle board 
manufacturing company from polluting our neighborhood. They had 
discovered that the company had been dumping its industrial 
wastewater containing formaldehyde, benzene and other toxic 
chemicals into unlined pits.
    This activity had resulted in a contaminated plume, a 
contaminated groundwater plume, a quarter of a mile long. My 
neighbors were also concerned about the health effects of toxic 
emissions that were being released from the plant, particularly 
at night.
    I was shocked to learn about these problems. Because my 
husband and I made the commitment to raise our family in this 
neighborhood, I decided I would do my part. Thus began my 
education in community organizing. Working side to side with my 
neighbors, a small group with few resources, and going to what 
seemed like countless meetings, we began to see that our 
actions were having an impact.
    We were able to pressure the company to address the 
contaminated groundwater through a cleanup agreement with the 
State, the first of its kind in New Mexico. We were also 
successful in getting the City to cite the company for 
illegally emitting toxic particulates at night.
    In 1992, things took a dramatic turn and much to our 
surprise 27 acres of industrial land next to the particle board 
manufacturing plant when up for sale. We heard that the plant 
was considering acquiring the land and expanding its facility 
and we began another organizing effort.
    Having no experience in community planning, we found 
ourselves on a steep learning curve. We familiarized ourselves 
with such new terms as smart growth, sustainable development 
and neo-traditional neighborhoods. Ultimately, we were able to 
convince the city of Albuquerque to acquire the 27 acres and 
commit to a contract, another first of its kind in the State, 
to allow the community to plan and develop this property.
    In order to carry out the planning and development, we 
first formed a community development corporation and later a 
community land trust. It is important to us that the housing we 
developed be affordable for future generations. I was hired as 
the Executive Director and our first task was to master plan 
this site.
    The award-winning master plan, which we named Arbolera de 
Vida, which is Orchard of Life, was based on neo-traditional 
neighborhood design, homes with front porches, safes areas for 
play, community gardens, places that encourage multi-
generational interaction.
    In early 2000, after removing truckloads of contaminated 
soil, we began construction of the first phase. We did not use 
the Brownfields Program for this initial cleanup. The program 
was used, however, later during the subsequent phases of this 
project.
    In an ironic twist of fate, the Sawmill Community Land 
Trust was able to purchase the former particle board 
manufacturing facility. The company had gone out of business 
and the land was put up for sale. The site, as you can imagine, 
required extensive environmental remediation.
    In 2009, the Sawmill Community Land Trust applied for and 
was awarded $225,000 through the State's Brownfields Funds 
Program for cleanup of the particle board manufacturing 
company's site. Additionally, we received $500,000 from the 
Enterprise Foundation in the form of a loan to also help with 
that.
    I brought photographs with me that illustrate the 
transformation of this area. And this one over here to the left 
is fairly new, it is the senior housing, and it is based on a 
really environmentally sound model. We cannot see the catch 
basins for rainwater but very well thought out and we have got 
a lot of very happy seniors living in this development. It is 
one of the nicest ones, I think, in the city.
    And the other photographs show just what kind of a mess 
that we encountered on that particular site. That was the 
particle board manufacturing company's site and you can see 
that we did a lot of cleanup there. That was where the $225,000 
was used.
    As you might imagine, millions of dollars in public and 
private financing have gone into the Sawmill effort over the 
last 20 years, resulting in hundreds of local construction-
related jobs. Most important, however, the project has created 
social and economic wealth in a community that was suffering 
from disinvestment and neglect.
    It was through the efforts of committed and determined 
residents that the neighborhood was turned around. It is 
through resources such as those provided by the Brownfields 
Program that these projects become a reality.
    I would like to thank you, Senator Udall, for inviting me 
to speak before this Committee today. I am happy to answer any 
questions.
    [The prepared statement of Ms. O'Malley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Senator Udall. Thank you, Commissioner.
    Dr. Kenyon, please proceed.

    STATEMENT OF KENDRA KENYON, PRESIDENT, IDAHO COUNCIL OF 
                          GOVERNMENTS

    Ms. Kenyon. Chairman Udall, Majority, Ranking Member Crapo, 
thank you for having me here today.
    My name is Dr. Kendra Kenyon. I am the President of the 
Idaho Council of Governments and we serve 10 counties and 42 
cities in Idaho which represents about 55 percent of the entire 
population. I am here today to discuss the Brownfields 
Revolving Loan Program and the benefits that we have had here 
in Idaho.
    Idaho has thousands of brownfields sites. These often-
abandoned sites can create safety and health risks for 
surrounding residents, they can blight an area, increase 
unemployment and are frequently tax delinquent. On the other 
hand, brownfields represent a tremendous opportunity for 
developers, investors and lenders to complete very profitable 
projects in prime locations.
    Since forming a coalition in 2004, we have partnered with 
our rural communities to turn landfills and abandoned mine 
sites into parks and trails, abandoned wood mills into visitors 
centers and white water parks, a historic grain silo into a 
performing arts theater, a historic laundry building into an 
event center, an abandoned creamery into a LEED certified 
municipal complex, and a former methamphetamine lab into a 
children's art academy, among many other projects which has led 
to job creation, community development and the protection of 
human health and the environment.
    These efforts have cleaned up thousands of acres for 
redevelopment at over 100 properties in Idaho, removing the 
stigma of environmental contamination and blight from rural 
communities, ultimately leading to improved economic and 
environment conditions.
    The Loan Fund fills crucial gaps in funding by providing 
loan dollars to private developers and low-interest loans and 
subgrants to communities, thereby providing public-private 
partnerships that further catalyze the cleanup of contaminated 
properties, incenting redevelopment over new development, 
creating and retaining jobs, conserving green space and 
reducing commuter miles.
    As a predominantly rural State, most communities in Idaho 
do not have the capacity to undertake a remediation project 
without significant technical, administrative and funding 
support. In rural areas, often our program can remove 
environmental barriers to development with a total expenditure 
of $15,000 to $50,000. While this dollar amount may sound 
small, these amounts are significant and difficult to come by 
for most rural communities in Idaho. Without EPA funding, there 
would be far fewer cleanup projects completed in Idaho, if any.
    To date, Idaho has put millions of dollars to work 
resulting in hundreds of jobs being created and retained. These 
revitalized properties have increased tax revenues for counties 
and have created safe havens and safe neighborhoods in our 
beautiful State, and all with an impressive loan default rate 
of 0 percent.
    Here are some noteworthy projects.
    Kelly's Whitewater Park. In Cascade, a small rural 
community, Kelly's Whitewater Park was developed on an old 
landfill. The University of Idaho recently released a report 
entitled 2011 Economic Impact of Kelly's Whitewater Park in 
Cascade, Idaho. They concluded the following. Kelly's economic 
impact on Valley County in 2011 was approximately $600,000 and 
provided 7.5 jobs. Kelly's attracted over 40,000 visitors, 
15,000 of who were first time visitors to Valley County. And 
just a few weeks ago, Kelly's hosted the first annual Payette 
River Games, attracting over 9,000 visitors.
    Kelly's is turning Cascade into a competitive destination, 
and over time Kelly's will naturally attract more and more 
tourists to Valley County. As the university points out in 
their study, Kelly's is creating spending potential for the 
community by bringing in tourists who could have chosen another 
destination or just passed through to other points of interest.
    The economic stimulus key is key in converting these 
opportunities into realities. By giving tourists and visitors 
reasons to spend money in Cascade, this is good for Cascade, 
good for the county and the State of Idaho as a whole.
    Another project is Lakeshore Market, which is a convenience 
store and a gas station. It is the site of an active petroleum 
contamination cleanup project financed by the Loan Fund of 
$385,000. Petroleum contamination was identified after the 
Idaho Department of Environmental Quality was notified that ice 
from a dispenser in the convenience store tasted and smelled 
like gasoline and a neighboring property owner reported that 
the domestic well water smelled like gasoline.
    The financing provided the capital required to undertake 
the remediation and keep the business viable which retained six 
important jobs in this rural community in addition to solving a 
health hazard and potentially saving lives.
    Another project is Mahaffey Oil with a $200,000 loan. In 
Canyon County, the county acquired a former bulk petroleum 
facility through delinquent taxes. But they did not have 
sufficient funds to complete remediation. Through assistance 
from the program, Canyon County is in the process of completing 
the cleanup of the property. When the project is complete, the 
county has plans to sell the property as a useful commercial 
industrial site that is ideally located in the center of the 
community's industrial zone.
    And here is my favorite, TRICA, Treasure Valley Institute 
for Children's Arts. In the heart of Boise's desirable north 
end residential neighborhood, an abandoned church in the Hyde 
Park District has finally been restored and removed from the 
list of Idaho's top five endangered historic properties. For 
years, the neglected and contaminated church was a site for the 
production of methamphetamines. The Idaho Brownfields Revolving 
Loan Fund played a pivotal role in financing this project.
    The restored, beautiful stone church now serves as a safe 
community arts space for children which includes music, dance, 
a recording studio, a children's library, a museum and a full 
theatrical stage. And this is where Casey's supposed to have 
puppets come up from the picture, but he forgot those. So, he 
did not have a picture that blew up that large.
    The center now employs 32 staff and teachers and provides 
education for hundreds of children per year. This is an 
excellent example of the often-overlooked social benefits that 
also come with brownfields cleanup projects in addition to 
protecting our children from dangerous and unhealthy 
situations.
    Our brownfields lending program has established excellent 
working relationships with all of the Federal, State and local 
entities needed to be successful. This allows us to drive the 
process at the local level working to identify and execute 
projects while having minimal administrative impact on our 
rural communities.
    We save our communities precious time and resources so they 
can devote their efforts to revitalizing these properties and 
creating needed jobs. These collaborative efforts have 
strengthened Federal and local relationships here in Idaho.
    In conclusion, Idaho's EPA-funded Brownfields Program has a 
very successful track record of promoting, funding and 
implementing brownfields revitalization projects which has 
ultimately led to job creation, reduction of environmental 
contamination and community renewal.
    We are grateful for the opportunities the fund has provided 
us and look forward to having the ability to continue to do 
good work that results from cleaning up the environment.
    Thank you, and I will stand for questions.
    [The prepared statement of Ms. Kenyon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
            
    Senator Udall. Thank you, Dr. Kenyon.
    Mr. Anderson, please proceed.

 STATEMENT OF GEOFF ANDERSON, PRESIDENT AND CEO, SMART GROWTH 
                            AMERICA

    Mr. Anderson. Thank you Chairman Udall and Ranking Member 
Crapo.
    My name is Geoff Anderson. I am the President and CEO of 
Smart Growth America, a national nonprofit organization 
dedicated to helping communities across the Country implement 
better development patterns.
    Smart Growth America is also the host of the National 
Brownfields Coalition which supports Federal policies that 
accelerate brownfields redevelopment and includes the U.S. 
Conference of Mayors, the National Association of Development 
Organizations, the Trust for Public Land and many others.
    I would like to thank the Subcommittee for holding this 
hearing and I would also like to thank you both for joining 
your colleagues, Senator Inhofe and the late Senator 
Lautenberg, in sponsoring and introducing the BUILD Act.
    As the Subcommittee considers ways to encourage brownfields 
development, I would like to provide three points to keep in 
mind.
    First, the market demand has created favorable conditions 
for brownfields redevelopment in existing communities. There 
was a time not long ago when there was little demand for 
development in the kinds of communities that brownfields are 
typically found in. Now, more and more millenials and boomers 
are choosing to live in cities, suburban downtowns and rural 
town centers and businesses are following.
    According to the U.S. Census Bureau, between 2000 and 2010, 
metro areas experienced double digit population growth in their 
downtown areas. And as a result, the private sector, I think, 
is now more ready than ever to put its capital behind cleanup 
and redevelopment. This is a unique opportunity, but it needs 
help in the form of Government financing and creating a 
conductive market and regulatory environment.
    Second point is that brownfields redevelopment makes 
economic and fiscal sense because it helps communities leverage 
private sector investment and improves local government 
budgets. I think you have heard some great examples of that 
already. And you cannot help but know now that the EPA has 
estimated that for every dollar, Federal dollar, that goes in, 
you are looking about an $18 return on that investment.
    With respect to local governments' budgets, though, 
blighted properties are bad taxpayers themselves, and they also 
reduce property values around them, reducing local government 
revenues. The good news is that this can work in the other 
direction, too. Redevelopment not only improves the brownfields 
property value, but it can increase property values within a 
three-quarter-mile radius of the site by as much as 5 to 15 
percent. So, it has got a very positive impact there.
    That is just part of the picture. A review of the studies 
in the field and Smart Growth America's own research has found 
smart growth development which often includes redevelopment of 
brownfields sites costs one-third less in upfront 
infrastructure costs, saves an average of 10 percent on ongoing 
service requirement costs, and generates as much as 10 times 
the tax revenue per acre compared to more conventional 
development.
    The BUILD Act provides several key changes which will help 
local governments capitalize on these economic and fiscal 
benefits. The Act expands the types of properties for which 
local governments can apply for a site assessment grant. The 
BUILD Act expands the eligibility for site assessment to 
include nonprofit organizations and, as has been noted earlier, 
these are often the folks who are best positioned to take the 
lead on some of these properties.
    And it eliminates the prohibition against using grant funds 
to cover administrative costs which I think is especially 
important in smaller communities that do not have a lot of 
capacity. So, I think that is a key piece of this.
    These changes are going to help nonprofits and local 
governments greatly. But as I pointed out at the start, there 
is new interest in these sites from the private sector and that 
leads me to my third point, and that is to realize the fiscal 
and economic benefits that I think we all recognize, we must 
have the private sector help meet the demand for brownfields 
redevelopment.
    With more than 450,000 unremediated brownfields sites 
across the Country, local government, State government, Federal 
Government by itself is not going to get it done. We have got 
to have the private sector capital engage on this more deeply. 
And I think there are two important steps the BUILD Act is 
taking to make that happen.
    We know that the costs of cleanup is a barrier to bringing 
sites back into the market, and the BUILD Act increases the 
maximum remediation grant from $200,000 to $500,000. And that 
brings the assistance more in line with what the Northeast 
Midwest Institute has calculated as the average cost of a 
cleanup, which is around $602,000.
    The BUILD Act's authorization of multipurpose grants is 
another step in the right direction, I think. Securing upfront 
funding for various phases of brownfields redevelopment, 
instead of having to piecemeal those funding sources together, 
allows communities to work more closely with the developer to 
turn blighted properties into productive community assets.
    To conclude, brownfields redevelopment benefits local 
economies, the municipal budgets, creates jobs, spurs private 
sector investment in blighted communities, protects public 
health and the environment and is responsive to market demand.
    The BUILD Act contains important improvements that will 
help to realize these benefits. As the Subcommittee considers 
reauthorization of the EPA's Brownfields Program, Smart Growth 
America and the National Brownfields Coalition stand ready to 
help in any way that we can.
    And I just want to thank you again for the opportunity to 
testify today.
    [The prepared statement of Mr. Anderson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Senator Udall. Thank you for that excellent testimony.
    Commissioner O'Malley, one of the things I think we would 
like to do is improve the work community-driven organizations 
like Sawmill have done to redevelop these areas and you have 
seen both sides of this from a nonprofit developer and as a 
local elected official.
    Would it have been helpful for Sawmill to have directly 
applied for the grant? Was the process cumbersome or not? Could 
you comment on those issues?
    Ms. O'Malley. Senator, I think that the, I think it would, 
it is a benefit for nonprofits to be able to apply directly for 
Federal funding. And, you know, it depends on the process, I 
guess, and I am assuming, you know, that it is streamlined and 
that it does not require sort of the technical assistance that 
other folks have mentioned in terms of making something 
cumbersome to qualify for, I think it would be a good thing.
    Senator Udall. And do you have an estimate on how many jobs 
the brownfields environmental remediation created?
    Ms. O'Malley. Hundreds.
    Senator Udall. Hundreds. There you go. That is good.
    Ms. O'Malley. Yes. I mean, you can imagine and, you know, 
as pointed out, the type of private investment that these kinds 
of projects attract. There was very little interest in 
investment in that area prior to the efforts of the community 
to, basically to make that, build that economic value, if you 
will. And as a result, there is a lot of interest. There is 
more, there is a hotel that has expanded, for example. The 
place just looks so much nicer as a result.
    Senator Udall. No doubt about it. In your testimony, you 
mentioned urban sprawl. Can you expand a little on how 
incentives like brownfields grants and others help alleviate 
the many problems associated with urban sprawl?
    Ms. O'Malley. Yes. I mean, as was mentioned by one of the 
speakers regarding the problems with sprawl is that we have 
limited capacity. We have limited resources. And, you know, we 
can take areas that have existing infrastructure and we can 
start to revitalize those communities. That makes a big 
difference. And we start to spur reinvestment in those areas.
    It is very costly to build out. That is something that we 
grapple with as a community in terms of, you know, resources 
for fire, resources for police, not to mention extension of 
water lines. Those things, to maintain get very costly.
    And a lot of times, it is unfortunate for the areas that do 
not receive that kind of benefit. I mean, we have people who 
have paid taxes for decades in the interior of the city and 
they are waiting for their roads to be repaired. But a lot of 
times, our money ends up going out to these other areas. So, I 
think it really is really a matter of, you know, resources and 
how we use those resources.
    Senator Udall. Is Bernalillo County looking at other 
brownfields projects? I mean, is this something that you think 
could be applied in a number of other areas?
    Ms. O'Malley. Yes. One of the things that we are focused 
on, like a lot of counties and cities throughout, is, of 
course, job creation in the county. And we are fortunate that 
we have a, especially in unincorporated areas, there is a 
really strong local agricultural activity there. And one of the 
things that we want to do is promote local agriculture.
    We are looking at a distribution center and that would 
probably likely take place in one of the older areas within the 
center of the city and it may very likely, it would probably 
require some remediation. So, there is an opportunity there 
that we would be looking at.
    Senator Udall. OK. Thank you.
    Senator Crapo.
    Senator Crapo. Thank you, Mr. Chairman. And I am going to 
direct my questions primarily to you, Dr. Kenyon.
    First of all, we appreciate all of the work you do in Idaho 
and your making the effort to come here and help us in Congress 
to understand the importance and also maybe ways to improve 
this important program.
    One of my first questions is how can we facilitate greater 
access for small rural communities to the Brownfields Program?
    Ms. Kenyon. Very good question. Idaho is mostly rural and 
this has been a barrier that we have been up against with the 
Brownfields Program and I think having better access there are 
a couple of things that we could do. This is strictly a 
business decision for these communities, for the county 
commissioners if you will. And there needs to probably be more 
flexibility in the payback term. It is 5 years now. And I think 
if we could have some flexibility, maybe move that out to 10 
years, that would pencil out for some of these communities.
    Also the match, even though it is 20 percent. It seems like 
very little. We know we want some skin in the game, so to 
speak, for these communities, but some of the distressed 
communities, it would nice if we could have less of a match and 
I think that they could look at participating at that point.
    And also changing the twice removed properties. There is 
the twice removed rule and oftentimes that is very, very 
difficult to overcome, especially in real life. People tend to 
hang on to their properties and they do not turn over as fast 
as they do in the urban areas.
    So, I think a few things like that would help with access.
    Senator Crapo. Well, thank you. I can identify with that a 
little bit. In previous years, we have worked on trying to help 
our small communities deal with their water infrastructure 
systems and one of the things we found was some of the 
communities face such significant burdens with such a small 
population base that if you put much of a match requirement in 
place, they simply cannot participate in the programs.
    And it is something that we really need to pay attention to 
as we try to allow our smaller communities to access some of 
these more important environmental remediation programs in 
addition to the other things you pointed out, I appreciate 
that, and maybe we can work on putting some of those 
improvements in our legislation as we move forward to help 
these small communities.
    Let me ask, what is the success rate for EPA competitive 
grant proposals that you work on submitted by Idaho applicants 
if those applicants do not solicit your program's assistance 
with crafting their applications?
    Ms. Kenyon. I do not know the exact numbers but I do know 
that most of the communities do not even try, the smaller rural 
communities. They do not even try. It is just too difficult for 
them. EPA, or not EPA but the Idaho Department of Environmental 
Quality, really does help a lot with those as well as the 
Council of Governments.
    I would say they probably would not have much a chance at 
all without our help. One of the problems that we are facing, I 
would think the biggest barrier in Idaho is, to run the 
Revolving Loan Fund Program, we only have a budget that 
accommodates one full-time employee. And we have 10 counties 
and 42 cities.
    Senator Crapo. Wow.
    Ms. Kenyon. So, that one employee does all the marketing, 
all the public relations, all of the education, they do the 
grant writing, they have to coordinate EPA, DEQ, the 
contractors and the owners. They have to be the project manager 
and they have to oversee the work and then report to DEQ and 
EPA. And then we have to make sure we act as bank and so we 
need to look at whether the person can pay back the money and 
we have to do our due diligence on the lending side as well as 
writing all of the reports and the compliance aspects. That is 
one FTE for 10 counties. That is a big challenge.
    Senator Crapo. Well, you make your point very well. I have 
got one more question for Dr. Kenyon. I do not mean to ignore 
you, Mr. Anderson. We really appreciate Smart Growth America 
but we have limited time here.
    But before we do that, I want to ask a special request of 
the Chairman and that is we have a number of students from 
Idaho who are here from the TRiO Program observing Congress in 
action and I was wondering if we could allow Casey, our 
assistant here, to show them these pictures of what the 
Brownfields Program is doing in Idaho because I do not think 
they can see it in the audience. So, if he could show those 
pictures to the audience while I am asking my last question I 
would really appreciate it.
    Senator Udall. That would be fine. Without objection. 
Please.
    Senator Crapo. Just stand right there, if you would, and 
turn them around.
    Senator Udall. Turn them around.
    Senator Crapo. I did not want our kids from Idaho to miss 
the opportunity to see some of beautiful Idaho as we have 
portrayed it in this hearing.
    And my last question to you, Dr. Kenyon, oh, by the way, we 
are going to have a picture with these students out in the 
hallway which I hope that you will join us for, Dr. Kenyon.
    Ms. Kenyon. Absolutely.
    Senator Crapo. And you are welcome, too, Mr. Chairman. I do 
not mean to interrupt your schedule.
    My last question is with regard to the economic and 
employment impacts, I think it was one of the projects that you 
showed a picture of, your favorite, you said, of the Treasure 
Valley Institute for Children's Art in the city of Boise. Do 
you have any estimate of the economic and employment aspects 
that project has had?
    Ms. Kenyon. Yes. And it is quite amazing. We lent the 
nonprofit, an organization, $250,000 on the Revolving Loan Fund 
and with that, they set a goal of raising $2.7 million to help 
restore the church. And in less than 2 years, they have raised 
$2.4 million and they are $300,000 short. So, in approximately 
500 days that is a return on investment of 356 percent. That is 
pretty outstanding.
    And I think if we look further than just a mere dollar on 
dollar return on investment, if you look at what an institution 
like this can do, this was a meth lab. And so, you think about 
these children being exposed to drug dealers in the 
neighborhood. Now, they are exposed to arts education. And No 
Child Left Behind shows that arts get equal billing with math, 
reading and science in terms of performance metrics in school.
    So, these kids now have an opportunity to learn more, 
improve their education and in addition, there is research that 
shows that SAT scores, there is a direct correlation between 
the more art classes you take, the higher SAT score you get.
    So, I think we need to look at a bigger picture.
    Senator Crapo. Can I interrupt you for a second and just 
let the audience know this is the former meth lab that Dr. 
Kenyon is taking about.
    Ms. Kenyon. It was a mess.
    Senator Crapo. Go ahead. I did not mean to interrupt.
    Ms. Kenyon. No, that was all. I grew up in this 
neighborhood in the north end, so this is near and dear to me 
and it was not only, you can see, a blight, really an 
environmental hazard, but you can imagine drug dealers in the 
middle of the night going in and out with children around. This 
was not a good situation.
    So this, I think, really speaks volumes for the program 
again above and beyond the dollar for dollar investment.
    Senator Crapo. Thank you. I know I went over in my time, 
Mr. Chairman.
    Senator Udall. No, no, no. Thank you.
    Mr. Anderson, you talked a little bit about leveraging and 
I think you used the number for every Federal dollar bringing 
in $18. Could you talk a little bit about how that works and do 
you see any way that we can increase that leveraging? I mean, 
it is pretty doggone good leveraging from what we see there, 
but could you give us an example, concrete examples, of what 
happens in this leveraging process?
    Mr. Anderson. Absolutely. And I think the leverage ranges 
from the kind of situation that was just described by Dr. 
Kenyon to, you know, pretty large-scale real estate 
redevelopment projects. One I worked on personally was one 
called Atlantic Station, redeveloping an old steel mill in 
downtown Atlanta, or actually mid-town Atlanta.
    It was a 138-acre site, lots of contamination from almost a 
century of industrial use. You know, not a great tax base. As 
the steel industry was having more trouble, less and less 
activity was happening at the plant. It occupied sort of a key 
location is mid-town Atlanta.
    And the net result after, you know, and for really economic 
and market reasons, a developer came in and eventually came in 
and eventually put in about a $4 billion redevelopment of that 
project, 10 million square feet of commercial and retail, I 
believe 6,000 housing units, bringing tax base, bringing jobs, 
bringing, you know, terrific environmental benefits in terms of 
shorter car trips, in terms of taking better care of the water 
runoff from those places.
    But really an economic driver and that is, you know, 
bringing the private sector dollars to leverage the kind of 
cleanup and redevelopment that we are looking for.
    Senator Udall. In your testimony, you highlight a recent 
study by the National Association of Realtors that revealed 
that approximately half of Americans prefer walkable 
communities with easy access to jobs, to parks and 
entertainment.
    Could you expand on ways we can work in public-private 
partnerships to make this happen through the Brownfields 
Program?
    Mr. Anderson. Yes, and that is a trend. The realtors study 
really verifies, I think, what many other studies are finding 
and what we are observing in the market itself. And if you talk 
to any of the developers, if you go to the International 
Council of Shopping Centers meeting or the Urban Land 
Institute, you find there is a clear recognition that the 
market is different and particularly different in the wake of 
the real estate bust.
    And what I think the opportunities for the Brownfields 
Program are to really try to match up in intelligent ways the 
brownfields opportunities with broader redevelopment plans. I 
mean, I think that is where you really get the bang for the 
buck is when you can look at a place that might be sort of at 
the edge of market viability and use specific investments on 
the Government's part to catalyze a tipping point in the market 
and take advantage of the market demand that it out there to 
bring all of that force to bear not only for the specific site 
but for broader neighborhood revitalization.
    It also means in many cases coordinating it closely with 
your capital and infrastructures and investments and thinking 
about it not just as a site but as a neighborhood effort that 
you are trying to bring the whole neighborhood up and using 
that as a catalytic investment.
    Senator Udall. The EPA has said it supports the Brownfields 
Program because of its dual land use benefits. Can you expand 
on the dual land use as you see it from a smart growth 
perspective of brownfields redevelopment and how does 
brownfields redevelopment protect open space?
    Mr. Anderson. You heard Assistant Administrator Stanislaus 
cite the statistic that came from an EPA study that for every 
acre of brownfields redeveloped, you are basically saving 4.5 
acres of green space. So, that is not only green space that is 
out there doing its watershed functions, it is also green space 
that you are not running police and fire service to, that you 
are not building extra utilities to, that you are not trying to 
service with all of the amenities and all of the urban services 
that those kinds of places require.
    So, it is a win-win in that sense from a local government 
fiscal standpoint, from bringing tax base from something that, 
as I said, is not generally doing a great job in paying taxes, 
often tax delinquent properties, instead making them good 
taxpayers and that has an effect, as the church I am sure did, 
on the surrounding property values.
    So, you not only get the improved property value and 
property revenues from that property, but everything around it 
sees an improvement and, whether you are talking about large-
scale developers or individual homeowners and neighbors in that 
area, it changes the investment environment and it changes the 
way people invest in their property and in their real estate.
    Senator Udall. Great. Thank you. Thank you very much.
    Do you have additional questions?
    Senator Crapo. I have none.
    Senator Udall. OK. I think that this has been very helpful 
and I think it is going to help the two of us work with the 
other Senators you have heard about earlier that have signed on 
to this reauthorization as to how do we move this forward and 
make it a better program for both rural and urban areas.
    I just want to thank all of you again for joining us here 
today. We will keep the record open for 14 days and we will 
submit any further questions in writing to our witnesses.
    With that, we will be adjourned.
    [Whereupon, at 3:12 p.m., the Subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
